U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

February 4, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Bradley Beers v. William P. Barr, Attorney General, et al,
S.Ct. No. 19-864

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 9,
2020, and placed on the docket on January 10, 2020. The government's response is due on
February 10, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 11, 2020, within which to file the govermnent's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0864
BEERS, BRADLEY
WILLIAM P. BARR, ATTORNEY GENERAL, ET AL.

MICHAEL P. GOTTLIEB
VANGROSSI & RECCHUITI
319 SWEDE STREET
NORRISTOWN, PA 19401
610-279-4200
JEFFREY T. GREEN
SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, DC 20005
202-736-8291
JGREEN@SIDLEY.COM
SARAH O'ROURKE SCHRUP
NORTHWESTERN SUPREME COURT
PRACTICUM
357 EAST CHICAGO AVENUE
CHICAGO , IL 60611
773-505-9280
S-SCHRUP@LAW.NORTHWESTERN.EDU

